                                                  NATIONAL SCIENCE FOUNDATION
                                                 . OFFICE OF INSPECTOR fjENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: A04050024                                                          11          Page 1 of 1



         We received an allegation that the subjects' (PI and co-PI) NSF proposal' contained text copied
         without appropriate attribution from two source documents, an NSF workshop report (the
         Report) and an a r t i ~ l e . ~

         Our review showed a minimal amount of text appeared to have been copied, mostly verbatim,
         from the Report into the subjects' NSF proposal. Further, two phrases appeared to have been
         copied from the article into the subjects' NSF proposal. In addition, we found less than two
         sentences from the Report appeared to have been copied into the subjects' earlier NSF P-re-
         proposal,3 submitted as the first step with NSF to submit the later formal NSF proposal.

         We observed the subjects listed the Report and the article in the "References section" of their
         NSF proposal. Also, the subjects listed the Report in the "References section" of their NSF pre-
         proposal. The sentences that contained the apparently copied phrases fiom the article contained a
         reference to the article. Finally, the text apparently copied from the Report involved statistic
         reported previously in earlier reports.

         This case involves a minimal number of lines of apparently copied text. Given 1) the very
         limited nature of the copied text, 2) most of the copied text was taken from an NSF sponsored
         workshop report specifically held and published to assist community colleges, 3) the inclusion of
         the apparently relevant source documents for the text in the "References section" in each the
         proposal and the pre-proposal, and 4) the copied text consisted of already reported statistics that
         would not easily lend itself to innovative rephrasing, we determined that this matter does not to
         rise to the level of a significant departure from accepted practices.

         Accordingly, this case is closed and no further action will be taken.




NSF OIG Form 2 (1 1/02)
